                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230
                                          *rATES O*




May 26, 2010


MEMORANDUM FOR:               Dr. Robert M. Groves
                              Director
                              U.S. Census Bureau


                               /^•3l—"
FROM:                         Todd J. Zinser


SUBJECT:	                     Recommendations from 2010 Census: Quarterly Report to
                              Congress, May 2010 (OIG-19791-4)

This memorandum transmits recommendations based on our review of 2010 Census activities
between January and March 2010. We conducted this work pursuant to the explanatory statement
accompanying the Supplemental Appropriations Act of 2008, which required the Census Bureau
to submit to the Senate and House Committees on Appropriations a detailed decennial plan and
assessment of associated risks, and also required OIG to provide quarterly reports on the
bureau's progress against this plan. Our fourth quarterly report, which presents an update on
Census 2010's schedule, cost, and risk management activities, was issued on May 5, 2010. We
have included the report as an attachment to this memorandum.

In our review, we covered the status of the Paper-based Operations Control System (PBOCS)
and its relationship to the success of several Census operations (see page 3 of the attachment),
especially nonresponse follow-up (NRFU); the status of the 2010 Census budget and spending of
American Recovery and Reinvestment Act of 2009 funds; and an update on program-level risks
to the census, including the development of contingency plans and tests of physical security at
key Census facilities. We also observed several Census operations during this quarter, including
update/leave (U/L), update/enumerate (U/E), enumeration at transitory locations (ETL), and
service-based enumeration (SBE), which is part of group quarters enumeration (see page 11 of
the attachment).

Recommendations


1.	 For the 2010 Census, we recommend that the bureau take the following actions to address the
    findings in our quarterly report:

   •	   PBOCS presents a risk to the cost of the NRFU operation, its timely completion, and the
        accuracy of its population count. Census should ensure clerical workarounds are being
        performed properly by having local Census offices, regional centers, and headquarters
        increase manual and automated checks of workaround procedures as well as




                                                                                          '^OFCOMME*^
        questionnaire control and tracking. Census should also take larger samples in already-
        established quality-control procedures.

   •	 In Census's monthly financial management reports (FMRs), only the month in which the
      FMR is issued shows the bureau's current financial performance. Because surplus funds
      are no longer visible in subsequent reports, it is impossible to identify the project or
      division to which the funds have been assigned. Therefore, the Census Bureau should
      improve the transparency of its budget process, especially the presentation of surplus (or
        elimination of the surplus) as shown in the FMRs.

2.	 In order to ensure a successful 2020 Census, we are also recommending that the bureau's
    planning include the following:

   •	 Census currently uses a "verbatim" training methodology, wherein recently trained crew
        leaders read to trainees from a manual, word for word, how to conduct a census
        operation. This "one-size-fits-all" approach does not provide employees with the
        necessary information to accomplish their jobs, and may have contributed to some of the
        inconsistent enumeration practices we observed in several operations. Census should
        thoroughly review and improve its decennial training process, including the use of more
        visual aids, electronic media, and unscripted role playing.

   •	 Census did not clearly inform the public about the different enumeration methods used in
      the decennial. Based on their address type, members of the public could receive census
      forms via mail out/mail back or by field operations such as U/L or U/E. Since many
      people did not know about the different operations, they were unaware of the various
      ways they might participate in the count. For example, the public could also pick up their
      forms at Be Counted sites or contact the bureau through its hotline for enumeration
      assistance. The bureau should improve its communication with the public on the various
      methods used for census enumeration and better inform people who did not receive forms
      at their homes how they might participate.

   •	   During our review we observed that many enumerators had difficulties with their
        assignments due to inaccurate, incomplete, or unusable maps. The bureau should review
        both its address canvassing practices and post-data collection processing to minimize
        errors on the maps that support subsequent operations.

   •	 Managers at many local Census offices commented that, for SBE, the partnership staff
      missed deadlines and provided poor-quality site lists for specific enumerations. To
      compensate, local Census offices were forced to use their own staffs to identify sites for
      enumeration. Census should improve its advance coordination with partnership
        organizations, ensure the alignment of partnership specialist skills with project
        requirements, establish procedures to mitigate the risk of duplicate records, and institute a
        more effective process for selecting and confirming sites to enumerate.

   •	   According to Census, "frontloading" its workforce (i.e., hiring and training more
        enumerators than necessary in order to offset turnover) is a cost-saving measure. During
        the ETL operation, crew leaders overestimated the number of Census staff needed to
        enumerate transitory locations, thus increasing the cost of operations. In another
        operation, we found many enumerator teams to be unnecessarily large—an average ratio
        of one enumerator for just seven homeless respondents. We observed significant periods
        of enumerator inactivity at certain locations, which increased the operation's direct labor
        and travel costs. Census should reevaluate its practice of frontloading and develop a
        better process to estimate workload and cost assumptions. A more streamlined
        enumeration process could reduce training and travel costs and be more responsive to
        changing economic conditions.

Please advise us of the actions you propose to take in response to our recommendations by
June 25, 2010. If you have any questions, please call me at (202) 482-4661 or Ron Prevost,
Assistant Inspector General for Economic and Statistical Program Assessment, at (202) 482­
3052.


Thank you for the courtesies extended to my staff during this review.

Attachment


cc:	    Rebecca M. Blank, Under Secretary for Economic Affairs
        Nancy Potok, Deputy Under Secretary for Economic Affairs
        Thomas L. Mesenbourg, Jr., Deputy Director, U.S. Census Bureau
        Andrew Moxam, Comptroller, U.S. Census Bureau
        Arnold Jackson, Associate Director, Decennial Census Programs, U.S. Census Bureau
        Frank Vitrano, Chief. Decennial Management Division, U.S. Census Bureau
        Pam White, External Liaison Branch Chief, Decennial Management Division, U.S.
         Census Bureau
        Adam Miller. Audit Liaison, U.S. Census Bureau
